        SENSITIVE BUT UNCLASSIFIED

       United States Department of State
     and the Broadcasting Board of Governors
               Office of Inspector General




             Report of Inspection


Summary Evaluation of the

  Regional Information

  Management Centers

Report Number IT-I-05-05, September 2005




                              IMPORTANT NOTICE
 This report is intended solely for the official use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Office of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will
 be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
 Improper disclosure of this report may result in criminal, civil, or administrative
 penalties.



         SENSITIVE BUT UNCLASSIFIED

                           TABLE OF CONTENTS



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

RESULTS IN BRIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

      Standardizing the RIMC Model to Meet Future Needs . . . . . . . . . . . . . . . . 7

      Increasing Operations Officer Positions . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

      Maintaining the Technician Workforce . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

      Granting Administrator Accounts for Technicians . . . . . . . . . . . . . . . . . . . 12

      Using the Infocenter and Universal Trouble Ticket System . . . . . . . . . . . 13

      Purchasing Nortel Maintenance Contracts . . . . . . . . . . . . . . . . . . . . . . . . . 13

      Standardizing Operations of Training Centers . . . . . . . . . . . . . . . . . . . . . . 14

FORMAL RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

ABBREVIATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

APPENDIX A - SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

                    SENSITIVE BUT UNCLASSIFIED





                               INTRODUCTION

    Four Regional Information Management Centers (RIMC) situated strategically
around the world provide telecommunications, network, systems engineering,
installation, and maintenance support for embassies and consulates. The Office of
Inspector General (OIG) conducted inspections of all four RIMCs during FY 2004.
The objectives of this evaluation were to assess the effectiveness of the RIMC
program in providing information management support to posts worldwide and to
identify systemic issues among the RIMCs.




OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   1 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





2 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                           RESULTS IN BRIEF

     In general, OIG found RIMC management to be effective, and constituent
posts rated customer support as satisfactory. However, OIG identified several
areas where changes in operations would improve overall Department of State
(Department) performance. Currently, each RIMC operates under a different
organizational and reporting structure, with varying support responsibilities and
resources. Standardizing the organization and operations of the RIMCs could
improve the overall efficiency and customer support provided through the centers.
Additional operations officer positions are necessary to provide adequate opera-
tional oversight for constituent posts. The Bureau of Information Resource Man-
agement (IRM) needs to take steps to ensure the long-term viability and quality of
its technician workforce. Digital technicians at the RIMCs do not have any admin-
istrative authority within the Department’s network architecture, which creates
difficulties in performing remote diagnostics when troubleshooting problems over
the phone. Few RIMC technicians use the Universal Trouble Ticket (UTT) system
consistently, which hampers the collection of aggregate data. The Department’s
lack of a telephone switch maintenance contract that allows RIMC telephone
technicians direct access to the Nortel help desk hampers their ability to provide
timely customer service. Finally, there are no memoranda of agreement between
IRM and the Foreign Service Institute (FSI) as to how training centers located at
two of the RIMCs are supposed to operate.




OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   3 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





4 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                                 BACKGROUND

    The four RIMCs are collocated with Embassy Bangkok, Embassy Pretoria,
Consulate General Frankfurt, and the Florida Regional Center in Fort Lauderdale.
Each center is responsible for providing telegraphic, telephonic, e-mail, and on-site
maintenance support for the full range of information systems deployed at all posts
within their region. RIMC Frankfurt and RIMC Ft. Lauderdale, in coordination
with FSI, operate training centers that offer information systems courses to systems
administrators. The RIMCs also support the Department’s antiterrorism initiatives
by providing emergency telecommunications support to areas of escalating political
instability, including the major theaters of the war on terrorism: Iraq and Afghani-
stan. RIMC locations and regional responsibilities are detailed in the figures below:

                                      RIMC Support Regions




*positions to be relocated to RIMC Pretoria Headquarters


OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   5 .

                    SENSITIVE BUT UNCLASSIFIED
                     SENSITIVE BUT UNCLASSIFIED





6 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                     SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





    FINDINGS AND RECOMMENDATIONS

     OIG found management of the centers to be effective, and customer service
surveys sent to the constituent posts of each RIMC indicated a high level of
customer satisfaction, though they would like to receive additional support, such as
site visits for preventive maintenance. However, the types of service provided and
the organizational structures that provide it will have to adapt to changing needs
within the Department. IRM’s strategic plan is moving towards reduced overseas
storage of electronic data and applications, as well as centralized system adminis-
tration, maintenance, and software application support. The role of on-site infor-
mation technology (IT) professionals will have to change from that of actively
managing networks to being an extension of the central management system, with
functions based on central direction, such as swapping out equipment as necessary.
Such centralization changes the requirements for full-time IT professionals at post,
and also affects the need for regional support personnel in both technical disci-
plines and operational oversight. These changes may require remodeling the RIMC
concept to one of smaller, more widely dispersed regional support centers with
more direct oversight responsibility and accountability for smaller sets of posts.
IRM’s Information Technology Working Group has recently begun to discuss how
the RIMCs will fit into the changing IT landscape. The future IT environment and
support needs of the Department should be a consideration in all of the findings
discussed in this report.



STANDARDIZING THE RIMC MODEL TO MEET FUTURE NEEDS
    Standardizing the RIMCs and the support services they provide could improve
efficiency by ensuring RIMCs are adequately and equitably staffed to meet support
requirements of their respective regions. Currently, no two RIMCs are alike in their
staffing or services provided, as illustrated in the staffing table below. Each oper-
ates under a different organizational and reporting structure, with varying support
responsibilities and resources. For example, two of the RIMCs operate training
centers in coordination with FSI; the other two do not. Full-time instructors staff
RIMC Frankfurt’s training center, while RIMC Ft. Lauderdale’s instructors perform
training as a collateral duty. Their primary responsibility is operations oversight of
constituent posts, which is done as part of a unique office among RIMCs called the


OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   7 .

                    SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED




           Regional Information Technology Support Office (RITSO). The RITSO staff of
           information management specialists (IMS) provides configuration management
           support to constituent posts; at the other RIMCs this is a digital technician (infor-
           mation management technical specialist (IMTS)) responsibility. RIMC Frankfurt
           oversees an IMS rover program that provides operations support for posts during
           staffing gaps; rover programs for the other regions are managed by the regional
           bureaus.




                                                            t




                                                          s
                                          cia l m e n




                                                     ia n s




                                                     ans

                                                      cer
                                              is t s s




                                                                                                                              p o r s ts
                                       io n a c e




                                                    n
                                                is ts




                                                O ffi
                                               n ici
                                              h n ic
                                   S p ea n a g e
                                          e rs ly




                                S p e n ic a t io
                                               e fs




                                                                                                                         S u pr o f P o
                                                                                                                                   te d
                                N a t S e rv i
                                             en t



                               Me F am i
      RIMC Staffing


                                ce M ls




                                         ia n s
                                          e rs
                                         to rs
                          M a c u t iv e




                                         ech
                                          SO




                                         one
                                         C hi




                                        ons
                                       T ec
                                        cia l
                                       to r s




                                        ta ff
                                       em




                                     mb




                                   Ro v

                                   R IT
                                  tr a c




                                   mu




                                 h n ic

                                  io T
                                e ig n




                                 eph




                                  ra ti
                                 i b le




                                                                                                                           be
                                nch




                                al S
                                nag




                                 ru c




                                ita l
                             Exe




                          Com




                                                                                                                        Num
                          O pe
                          Con




                          Rad
                          IM S

                          IM S




                           Tel
                          E l ig




                          T ec
                          In s t
                          O ffi
                          B ra




                          F or




                          D ig




                          T ot
B RIMC angkok              2     3     2     3     3     0     0     0      0     0     9     3     4     2     31      58
P RIMC retoria             2     3     2     1     0     0     0     0      0     0     4     4     4     0     20      40
F RIMC rankfurt            2     4     3     4     5     1     2     8      0     0    12     7     5     1     54      118
F RIMC
  L    t. auderdale        2     4     0     3     0     1     0     0      3     1     9     4     5     1     33      49

               The RIMCs’ different organizational structures and services provided, as well
           as inconsistent responsibilities among IMTS disciplines, IMS personnel, and con-
           tractors at the RIMCs, contribute to confusion at constituent posts about first
           responders in different situations, create problems for technicians taking assign-
           ments at other RIMCs, and make it difficult to compare staffing across RIMCs. The
           overlaps in functional responsibilities also keep the technical expertise of IMTS
           personnel from being fully employed. There is currently no memorandum of
           agreement between IRM and the regional bureaus that specifies organizational
           structures or the types of services to be provided by RIMCs to constituent posts,
           nor adequate performance metrics in place to assess the quality of service pro-
           vided.


               Recommendation 1: The Bureau of Information Resource Management, in
               coordination with the Bureaus of European and Eurasian Affairs, East Asian
               and Pacific Affairs, and African Affairs, should develop a memorandum of
               agreement that, at a minimum, standardizes the organizational structures and
               services to be provided by Regional Information Management Centers, sets
               standards of performance, and provides a system of metrics for assessing the
               quality of service provided. (Action: IRM, in coordination with EUR, EAP,
               and AF)


               Each of the RIMCs operates under a different arrangement for funding and
           personnel resources. All of the RIMCs receive program funding through IRM, and


8 .      OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                        SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




the regional bureaus receiving support provide positions to staff three of the
RIMCs through a variety of arrangements. For example, the Bureau of Near
Eastern Affairs (NEA) transferred their RIMC positions to the Bureau of European
and Eurasian Affairs to provide assistance to NEA posts on a fee for service basis
from RIMC Frankfurt. The RIMCs’ resources are provided by and subject to the
needs of regional bureaus, such as assigning technicians from RIMCs to fill tempo-
rary positions in Baghdad. As a result, RIMC staffing does not consistently and
adequately reflect the support needs of the constituent posts. For example, RIMC
Ft. Lauderdale and RIMC Frankfurt have the same number of radio technicians, yet
RIMC Frankfurt supports more than twice as many posts as RIMC Ft. Lauderdale.
Overall, the ratio of IMTS personnel at each RIMC to the number of posts sup-
ported varies from 1:2.7 to 1:4.9, illustrating a wide disparity in how the RIMCs are
staffed. A given discipline at one RIMC might be overstaffed, yet a transfer of
positions to another RIMC with a shortage in that field is unlikely in the current
situation with assets controlled by regional bureaus.

    RIMC Ft. Lauderdale, however, is now under the authority of IRM, with
positions staffed accordingly. The increase in customer satisfaction at RIMC Ft.
Lauderdale after assets were transferred to IRM points to the benefits possible with
program standardization under the functional bureau. Although similar transfers
with the other RIMCs would involve costs such as housing and the added burdens
of assuming administrative overhead and International Cooperative Administrative
Support Services membership, transferring RIMC positions from the associated
regional bureaus to IRM could serve to better align staffing to meet needs. It could
also ensure a better fit for RIMC within IRM’s overall customer support program,
including initiatives for regionalization of IT support and forward staging of
equipment.



INCREASING OPERATIONS OFFICER POSITIONS
    There are not enough operations officer positions within the RIMC program to
provide adequate operational assistance to constituent posts. As shown in the
staffing table in the previous section, two of the RIMCs have only one operations
officer, and RIMC Pretoria’s operations officer position has been eliminated. In the
case of RIMC Frankfurt, the operations officer is responsible for 118 posts. This
position provides advice and support for all aspects of information management
(IM) operations, conducts informal inspections, assists in strategic and contingency
planning, and in some cases conducts communications security audits. The chief
benefit that these periodic visits provide is the consultation to improve manage-


OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   9 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




         ment and operational controls of information systems at posts. In customer service
         surveys, posts that received this assistance described the operations officer position
         as “invaluable.”

              With the Department’s transition to more centralized management of informa-
         tion systems, the need for assistance in network configuration and systems adminis-
         tration may diminish; however, the need for assistance in compliance with Federal
         and Department IT rules and regulations, information assurance, information
         systems security functions, and other planning and documentation will remain.
         Increasing the number of operations officers to provide more coverage of each
         RIMC’s serviced posts would improve the operational and security posture of those
         posts’ information and communications systems. Additional regional positions
         such as the operations officer could be realized by redeploying work processes away
         from posts to regional support centers to address the need for standardized global
         IT support. Such actions should be considered and implemented within the context
         of ongoing rightsizing initiatives within the Department.


             Recommendation 2: The Office of the Under Secretary for Management, in
             coordination with the Bureaus of Information Resource Management, Human
             Resources, European and Eurasian Affairs, East Asian and Pacific Affairs,
             and African Affairs, should design and implement a plan to increase the Re-
             gional Information Management Centers’ operational assistance to constituent
             posts. (Action: M/P, in coordination with IRM, DGHR, EUR, EAP, and AF)




         MAINTAINING THE TECHNICIAN WORKFORCE
             The RIMC program is facing a serious problem of attrition among technicians
         that has resulted in staffing shortages, which hamper the RIMCs’ ability to provide
         timely and efficient customer service. Insufficient staffing with experienced IMTS
         personnel means that RIMCs must often operate in a reactive manner, precluding
         proactive measures such as site visits for preventive maintenance and operational
         oversight that could serve to correct deficiencies before they become serious
         problems. The attrition and resulting staffing shortage of technicians has many
         causes: heavy travel schedules that affect quality of life, insufficient incentive
         programs for retention of technicians, a perceived lack of promotion potential
         within the technician skill code that causes technicians to take out-of-cone assign-
         ments, and a lack of overseas positions for new hires to gain experience. IRM can



10 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED




improve the overall effectiveness of the RIMC program by ensuring a continuous
workforce of technical and operational personnel with the tools and experience
necessary to support the complex IT systems deployed worldwide.

     According to RIMC management, the primary reason for technical personnel
leaving their skill code is the extensive travel and the burden it puts on their family
life. In many cases, post differentials and cost of living allowances make it more
advantageous financially and less stressful on the employee and their family to be
assigned to nontraveling positions overseas. The Department has no incentive for
technician personnel to remain technicians in these instances and has relied on the
proposition that there will be enough personnel to fill these ranks just because they
enjoy traveling. Also, as an IMS there are a world of possible assignments to bid
on, whereas the only overseas positions a technician can bid on are at three of the
RIMCs and certain branch offices.

    Another cause of overall technician attrition is the perceived lack of promotion
potential within the technician skill code. This perception causes technicians to
take out-of-cone assignments because it is regarded as a “value-added” assignment
that will make them more competitive to promotion panels. While there can be a
benefit in technicians gaining operational experience, it is questionable as to the
value added over those technicians actually working within their own skill code.
Some of the value-added assignments have included general services officer and
financial officer positions. RIMC management has found that many technicians
lose their technical expertise once they take such out-of-cone assignments.

     Compounding the loss of technicians due to out-of-cone assignments is that
these personnel are generally still officially counted as technician personnel for
years until a skill code change is completed. This creates a lag in hiring authoriza-
tions, since the Bureau of Human Resources might regard the technician skill code
as being at full complement, while in fact there might be 30 to 40 technician
positions in out-of-cone assignments. These value-added assignments come at
significant cost to the Department because of turnover of technical personnel into
other cones, which in turn necessitates a constant intake of new-hire technical
personnel, all needing to be trained. Service agreements currently in place do not
fully consider the cost of training technicians and can be waived by career develop-
ment officers to allow out-of-cone assignments.

    Further human resource problems are created when new technicians are hired.
In addition to the training expense mentioned above, the new-hire technicians
require overseas experience. However, there are limited positions for new-hires
overseas. This is because IRM tries to send new-hires to the main RIMC offices or


OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   11 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




         branch offices with senior technicians present. Finding positions overseas for new-
         hire technicians often means that an experienced technician would need to take a
         domestic assignment or hard-to-fill position, both of which they are often unwilling
         to do. Sometimes the senior technicians are forced into domestic assignments by
         ceding the overseas position to an entry-level grade. This creates further attrition
         among seasoned technicians and is tilting the balance of the overall technician
         workforce towards inexperienced new-hires. For example, almost all of RIMC
         Pretoria’s technicians are on their first or second tour, and 50 percent of RIMC
         Frankfurt’s digital section is made up of entry-level technicians.

              Keeping a qualified workforce of technicians has become a dilemma. The lack
         of incentive for technicians to remain technicians is causing them to leave the
         technical ranks for other skill codes, and sending new-hire technicians overseas for
         experience displaces the seasoned technicians that remain, thus causing further
         attrition and a less experienced workforce. Solving these problems will require IRM
         to work closely with the Bureau of Human Resources. The emphasis should be to
         retain experienced technicians rather than continually hiring and training new ones.
         All of the human resource issues will have to be considered in light of the pro-
         jected future role of RIMC in the changing IT field.


             Recommendation 3: The Bureau of Information Resource Management, in
             coordination with the Bureau of Human Resources, should design and imple-
             ment a plan to improve the career track and retention of information manage-
             ment technical specialist personnel, including appropriate incentive packages
             and training service agreements that specify a minimum period of service be
             completed within the technician skill code. (Action: IRM, in coordination
             with DGHR)




         GRANTING ADMINISTRATOR ACCOUNTS FOR TECHNICIANS
             Digital technicians at the RIMCs do not have any administrative authority
         within the Department’s network architecture, except when they perform site visits.
         This creates difficulties in performing remote diagnostics when troubleshooting
         problems over the phone, because they do not have access to utilities such as ping
         and trace route, which help identify network paths and diagnose problems. The
         Enterprise Network Management Operations Center is working with one of the
         RIMCs to permit a limited level of administrator privileges for digital technicians to
         allow them to perform their duties more effectively.


12 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





   Recommendation 4: The Bureau of Information Resource Management
   should provide Regional Information Management Center technicians with a
   level of administrator access to the Department network infrastructure suffi-
   cient to allow them to troubleshoot post problems. (Action: IRM)




USING THE INFOCENTER AND UNIVERSAL TROUBLE TICKET
SYSTEM
    Few RIMC technicians use the UTT system consistently because many IT
professionals at posts prefer to contact RIMC directly. The general perception is
that “when it counts, you are going to pick up the phone and call the people you
know.” Most customers and technicians prefer to work directly with each other.
Although they recognize the value of tracking service calls and collecting aggregate
data for analysis, they do not believe that the UTT system effectively performs this
task. On a practical level, technicians noted that the system takes too long to be
useful during emergency situations and is also tedious to enter information into on
a daily basis. However, the system is undergoing improvements and should have
increased capability in the future. RIMC technicians should make greater use of
the system to build the store of aggregate data.


   Recommendation 5: The Bureau of Information Resource Management
   should ensure that technicians at Regional Information Management Centers
   employ the Universal Trouble Ticket system in their interactions with con-
   stituent posts and that actions taken by technicians are appropriately recorded
   in the system database. (Action: IRM)




PURCHASING NORTEL MAINTENANCE CONTRACTS
    The Department does not currently have a telephone switch maintenance
contract that allows RIMC telephone technicians direct access to the Nortel help
desk. This differs from the type of support technicians were accustomed to under
the Mitel contract, and they are finding it difficult to find sources of information to
troubleshoot problems. Currently, there is a single individual in the Foreign Post
Telephone (FPT) help desk who has direct access to Nortel engineers and acts as a


OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   13 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED




         liaison for all RIMC locations. RIMC technicians must work through this Depart-
         ment contact. Having only one point of contact for much needed technical assis-
         tance creates delays and frustration in providing assistance to RIMC customers.
         FPT recognizes the need for RIMC telephone technicians in the field to have direct
         access to the Nortel help desk and has been pursuing funding for such access for
         two years. The Department may be able to find a more cost-effective solution
         through other companies that provide similar advanced technical assistance for
         Nortel products at more competitive rates.


             Recommendation 6: The Bureau of Information Resource Management
             should provide the necessary funding for purchase of a telephone mainte-
             nance contract to allow Regional Information Management Center technicians
             access to a help desk for technical assistance with Nortel products. (Action:
             IRM)




         STANDARDIZING OPERATIONS OF TRAINING CENTERS
             The lack of standardization among RIMCs also applies to training centers. Two
         of the four RIMCs have training centers that operate in coordination with FSI.
         However, there are no memoranda of agreement between IRM and FSI as to how
         these centers are supposed to operate. The training centers have no formal bud-
         gets. Funding for training materials is provided by FSI, while the RIMCs cover
         incidental operating expenses. The question still remains as to whether the current
         model of having training centers hosted by RIMCs is the most efficient means to
         provide instruction, despite the argument that RIMC technicians with field experi-
         ence make ideal instructors. Also, the current location of the two training centers
         in Frankfurt and Ft. Lauderdale may not be the most accessible to students. While
         RIMC Frankfurt’s location in central Europe keeps their training schedule and
         classrooms full, the training center in Ft. Lauderdale has been underused--during
         the OIG inspection, a class had only three students, one of whom was a Foreign
         Service national from Embassy Kathmandu.

             There have been problems with students being enrolled in RIMC training
         centers without the training center being notified, as well as problems identifying
         the funding source for students and whether they have met course prerequisites.
         Since FSI is unable to extend Student Training Management System access to
         remote sites due to technical limitations, or assume responsibility for registering
         students in classes held at remote locations, these difficulties are likely to persist.


14 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





   Recommendation 7: The Bureau of Information Resource Management, in
   coordination with the Foreign Service Institute, should develop a standard
   training center to be implemented at Regional Information Management Cen-
   ters. (Action: IRM, in coordination with FSI)




OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   15 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





16 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





             FORMAL RECOMMENDATIONS

Recommendation 1: The Bureau of Information Resource Management, in coor-
  dination with the Bureaus of European and Eurasian Affairs, East Asian and
  Pacific Affairs, and African Affairs, should develop a memorandum of agree-
  ment that, at a minimum, standardizes the organizational structures and services
  to be provided by Regional Information Management Centers, sets standards of
  performance, and provides a system of metrics for assessing the quality of ser-
  vice provided. (Action: IRM, in coordination with EUR, EAP, and AF)

Recommendation 2: The Office of the Under Secretary for Management, in co-
  ordination with the Bureaus of Information Resource Management, Human Re-
  sources, European and Eurasian Affairs, East Asian and Pacific Affairs, and
  African Affairs, should design and implement a plan to increase the Regional
  Information Management Centers’ operational assistance to constituent posts.
  (Action: M/P, in coordination with IRM, DGHR, EUR, EAP, and AF)

Recommendation 3: The Bureau of Information Resource Management, in coor-
  dination with the Bureau of Human Resources, should design and implement a
  plan to improve the career track and retention of information management tech-
  nical specialist personnel, including appropriate incentive packages and training
  service agreements that specify a minimum period of service be completed
  within the technician skill code. (Action: IRM, in coordination with DGHR)

Recommendation 4: The Bureau of Information Resource Management should
  provide Regional Information Management Center technicians with a level of
  administrator access to the Department network infrastructure sufficient to al-
  low them to troubleshoot post problems. (Action: IRM)

Recommendation 5: The Bureau of Information Resource Management should
  ensure that technicians at Regional Information Management Centers employ
  the Universal Trouble Ticket system in their interactions with constituent posts
  and that actions taken by technicians are appropriately recorded in the system
  database. (Action: IRM)

Recommendation 6: The Bureau of Information Resource Management should
  provide the necessary funding for purchase of a telephone maintenance contract
  to allow Regional Information Management Center technicians access to a help
  desk for technical assistance with Nortel products. (Action: IRM)

OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   17 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED



         Recommendation 7: The Bureau of Information Resource Management, in coor-
           dination with the Foreign Service Institute, should develop a standard training
           center to be implemented at Regional Information Management Centers.
           (Action: IRM, in coordination with FSI)




18 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                              ABBREVIATIONS

                      AF              Bureau of African Affairs
                 DGHR                 Office of the Director General of the Foreign
                                      Service and Director of Human Resources
                    EAP               Bureau of East Asian and Pacific Affairs
                   EUR                Bureau of European and Eurasian Affairs
                    FPT               Foreign Post Telephone Branch
                     FSI              Foreign Service Institute
                      IM              Information management
                     IMS              Information management specialist
                    IRM               Bureau of Information Resource Management
                       IT             Information technology
                    M/P               Office of Management Policy
                   NEA                Bureau of Near Eastern Affairs
                    OIG               Office of Inspector General
                  RIMC                Regional Information Management Center
                 RITSO                Regional Information Technology Support Office
                      SA              Bureau of South Asian Affairs
             USNATO                   U.S. Mission to the North Atlantic Treaty
                                      Organization
                    UTT               Universal Trouble Ticket
                   WHA                Bureau of Western Hemisphere Affairs




OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   19 .

                    SENSITIVE BUT UNCLASSIFIED
                      SENSITIVE BUT UNCLASSIFIED





20 .   OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005


                      SENSITIVE BUT UNCLASSIFIED
                    SENSITIVE BUT UNCLASSIFIED





                  APPENDIX A - SCOPE AND
                      METHODOLOGY


    To meet its evaluation objectives, OIG reviewed findings developed during the
inspections of the four RIMCs, as well as additional supporting documentation
collected during those inspections. OIG met with various Department officials in
Washington, DC, to get additional information.

    OIG’s Office of Information Technology performed this review in Washington,
DC, between February 4 and 25, 2005. OIG held additional discussions on the
report during August 2005. It is based on an analysis of inspection work at RIMC
Bangkok, Thailand, between February 2 and 23, 2004; RIMC Pretoria, South
Africa, between February 12 and March 19, 2004; RIMC Frankfurt, Germany,
between May 24 and June 9, 2004; and RIMC Ft. Lauderdale, Florida, between July
12 and 22, 2004. The major contributors to this report were Lynn Allen, Mary S.
Heard, and Matthew J. Ragnetti.




OIG Report No. IT-I-05-05, Summary Evaluation of the Regional Information Management Centers, September 2005   21 .

                    SENSITIVE BUT UNCLASSIFIED
